App. 1
In the
Indiana Supreme Court
Brian E Hardin,
Appellant,
v.
State of Indiana,

Court of Appeals Case No.
18A-CR-02629
Trial Court Case No.
55C01-1709-F2-1851

Appellee.
Order
This matter has come before the Indiana Supreme
Court on a petition to transfer jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57. Being
duly advised, the Court GRANTS the petition to transfer.
Done at Indianapolis, Indiana, on 6/23/2020.
/s/ Loretta H. Rush
Loretta H. Rush
Chief Justice of Indiana

App. 2
[SEAL]
IN THE

Indiana Supreme Court
Supreme Court Case No. 20S-CR-418
Brian E. Hardin,
Appellant (Defendant),
–v–
State of Indiana,
Appellee (Plaintiff ).
Argued: September 26, 2019 | Decided June 23, 2020
Appeal from the Morgan Circuit Court,
No. 55C01-1709-F2-1851
The Honorable Matthew G. Hanson, Judge
On Petition to Transfer from the
Indiana Court of Appeals, No. 18A-CR-2629
Opinion by Justice Goff
Justice Massa concurs.
Justice Slaughter concurs with separate opinion.
Justice David concurs in part, dissents in part with
separate opinion in which Chief Justice Rush joins.
Goff, Justice.
Both our federal and state constitutions provide
protections from unreasonable searches and seizures.
This case implicates those protections by raising the
following question: Do law-enforcement officers violate
either constitution by searching a person’s vehicle
when the person drives that vehicle up to his or her

App. 3
house while officers are there executing a search warrant for the house that does not address vehicles?
Based on the circumstances here, we answer “no” and
affirm the trial court. In arriving at that answer, we
provide guidance on the test applicable to these specific types of situations under the Fourth Amendment
to the United States Constitution. We also survey our
precedent under Article 1, Section 11 of the Indiana
Constitution and provide generally applicable guidance on our totality-of-the-circumstances test.
Factual and Procedural History
Late one night in September 2017, a team of four
law-enforcement officers prepared to execute a warrant to search Brian Hardin’s home in Camby, Indiana.
The search sprang from a multi-agency investigation
into the alleged drug-dealing activities of several people, including Hardin. As part of this investigation, officers wiretapped one of Hardin’s confederates, Jerry
Hall, and intercepted communications between the
two men regarding the purchase and distribution of
methamphetamine. Officers also observed Hardin
driving a truck, registered in his name, to his home in
Camby and Hall’s home in Indianapolis. Indiana State
Police (ISP) Detective Joshua Allen put this information
in an affidavit seeking a warrant to search Hardin’s
home for drugs and related items. The Morgan Superior Court issued the warrant but did not address the
treatment of vehicles that might be found on the premises.

App. 4
The four officers, including Detective Allen, forcibly entered Hardin’s home, learned that no one else
was there, and began their search. In the garage, they
found digital scales and “heat seal bags that contained
a crystal substance” which tested positive for methamphetamine. Tr. Vol. 2, p. 93. The officers also found syringes and two “pay and owe sheets,” which Detective
Allen described as ledgers to keep track of who owed
money for drugs provided. Id. at 118. While the officers
were at the home, Hardin’s girlfriend and her daughter
arrived, and the officers escorted them both inside the
home for supervision. Also during the search, the officers learned from police executing a search warrant on
Hall’s home in Indianapolis that Hardin had recently
obtained a large amount of methamphetamine from
Hall.
Based on this information, Detective Allen and
ISP Trooper John Patrick left in separate vehicles to
try to find Hardin. ISP Detective Matt Fleener and ISP
Trooper Kent Rohlfing stayed behind in case Hardin
came back to the home.
While Detective Allen and Trooper Patrick looked
for their suspect, Hardin returned home. Trooper
Rohlfing, covering the front door of Hardin’s home, saw
a truck pull into the driveway and heard the overheadgarage door open. A few seconds later, Hardin opened
the door between the garage and kitchen, which Detective Fleener was covering. Detective Fleener identified
himself as a law-enforcement officer and quickly closed
the gap between himself and a backpedaling Hardin.
After a scuffle, Detective Fleener and Trooper Rohlfing

App. 5
handcuffed Hardin and had him sit in a chair. They
then called EMS to tend to Hardin’s minor injuries and
informed Detective Allen and Trooper Patrick that
Hardin was in custody at the home.
Detective Allen and Trooper Patrick returned to
the home, and Detective Allen searched the vehicle
Hardin drove into his driveway—the same one officers
observed him driving during previous surveillance. Detective Allen found 108 grams of crystal methamphetamine in a black bag underneath the driver’s seat.
The State charged Hardin with two counts: dealing
in methamphetamine and possession of methamphetamine. It also sought a habitual-offender enhancement, which it later dismissed.
Hardin filed a pretrial motion to suppress the evidence obtained during the search. Basing his argument on both the Fourth Amendment to the United
States Constitution and Article 1, Section 11 of the
Indiana Constitution, Hardin argued that the officers
exceeded the scope of the warrant by searching his vehicle, which was not mentioned in the warrant. After a
hearing, the trial court denied the suppression motion.
Specifically, the trial court found that Hardin’s vehicle,
parked in the driveway to his home, was within the
curtilage of the home and therefore fell within the
scope of the warrant. Alternatively, the court found
that probable cause and the automobile exception to
the Fourth Amendment’s warrant requirement supported the search of Hardin’s vehicle. Hardin did not

App. 6
seek interlocutory appeal, and the case proceeded to a
bench trial.
At trial, Hardin objected to the introduction of
the evidence obtained during the search of his vehicle,
reiterating and incorporating the suppression arguments he previously made. The trial court overruled
the objection and admitted the evidence. Ultimately,
the court found Hardin guilty of both counts—dealing
in and possession of methamphetamine—and sentenced him to an aggregate term of nearly twenty-two
years.
Hardin appealed, challenging the admission of
the evidence found in his vehicle based on the Fourth
Amendment and Article 1, Section 11. The Court of
Appeals affirmed in a split decision. Hardin v. State,
124 N.E.3d 117 (Ind. Ct. App. 2019). Relying on recent
precedent from the Court of Appeals and the fact that
Hardin did not challenge the trial court’s finding that
his vehicle was within the curtilage of his home, the
majority found that the search did not violate the
Fourth Amendment. Id. at 123–24. It likewise found no
violation of Article 1, Section 11 based on the totality
of the circumstances. Id. at 124. Judge Mathias, however, dissented. Id. at 125–26 (Mathias, J., dissenting).
In concluding that the search violated both our federal
and state constitutions, he focused on the relative ease
with which the law-enforcement officers could have included a description of Hardin’s vehicle in the warrant
for the home and with which they could have obtained
a separate warrant specifically for the vehicle. Id
(Mathias, J., dissenting).

App. 7
Hardin petitioned for transfer, which we now
grant, thereby vacating the Court of Appeals opinion.
See Ind. Appellate Rule 58(A).
Standard of Review
We review a trial court’s ruling on the admissibility of evidence at trial for an abuse of discretion. Carpenter v. State, 18 N.E.3d 998, 1001 (Ind. 2014). “But
the ultimate determination of the constitutionality of
a search or seizure is a question of law that we consider
de novo.” Id.
Discussion and Decision
Hardin argues that the trial court should not have
admitted the evidence found during the search of his
vehicle because the search violated the Fourth Amendment to the United States Constitution and Article 1,
Section 11 of the Indiana Constitution. He acknowledges that the law-enforcement officers obtained a
warrant for his home and that the trial court found
that his vehicle was within the home’s curtilage when
the officers searched it. Neither Hardin nor the State
asks us to address whether the vehicle was parked
within the home’s curtilage, so we assume without deciding that the trial court correctly resolved that issue.
Instead, Hardin contends that the search was constitutionally unreasonable and not supported by the warrant for his home, which addressed neither vehicles
generally nor his vehicle specifically. We consider the

App. 8
nuances of this argument under the Fourth Amendment and Article 1, Section 11 below.
I.

The search of Hardin’s vehicle did not violate the Fourth Amendment because the
vehicle fell within the scope of the warrant
for Hardin’s home.

The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not
be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
A warrant covering a house allows searches of
things and places within the house that could contain
the object of the search. United States v. Ross, 456 U.S.
798, 820–21 (1982) (“A lawful search of fixed premises
generally extends to the entire area in which the object
of the search may be found and is not limited by the
possibility that separate acts of entry or opening may
be required to complete the search.”). The boundaries
of a house for Fourth Amendment purposes extend beyond the physical structure of the house itself to include the curtilage—that is, “the area immediately
surrounding and associated with the home.” Collins v.
Virginia, 138 S. Ct. 1663, 1670 (2018) (citations omitted). Thus, the holding of Ross extends into the

App. 9
curtilage, meaning that a warrant for a house generally allows searches of the things and places located in
the curtilage that could contain the object of the
search. See Sowers v. State, 724 N.E.2d 588, 590–91
(Ind. 2000). This case tests the limits of that established Fourth Amendment jurisprudence. Specifically,
it requires us to answer the following question: When
can police, armed with a warrant to search a home,
search a vehicle located in the home’s curtilage?1
In answering this question of first impression for
our Court, “we consider the opinions and law of other
jurisdictions as helpful to our analysis.” Ackerman v.
State, 51 N.E.3d 171, 180 (Ind. 2016). Other courts
faced with this question have generally fallen into one
of two broad groups, differing in whether they consider
who owns or controls the vehicle to be searched.
Courts in one group don’t consider ownership or
control of the vehicle at all. They allow searches of any
vehicle found on the premises for which a warrant has
been issued.
•

1

See, e.g., United States v. Singer, 970 F.2d
1414, 1418 (5th Cir. 1992) (“This court
has consistently held that a warrant

The warrant here described the premises without placing
any specific limitation on searches of vehicles. The inclusion of
such a limitation in a warrant could change the analysis. See
United States v. Johnson, 640 F.3d 843, 845–46 (8th Cir. 2011)
(noting that warrants may contain limitations on vehicle
searches, constraining officers’ authority to search).

App. 10
authorizing a search of ‘the premises’ includes vehicles parked on the premises.”);
•

United States v. Armstrong, 546 F. App’x
936, 939 (11th Cir. 2013) (unpublished)
(stating that a search warrant for “the
‘property’ at the described location . . . is
sufficient to support a search of a vehicle
parked on the premises”);

•

McLeod v. State, 297 Ga. 99, 772 S.E.2d
641, 646 (2015) (citation omitted) (“Vehicles parked within the curtilage of a
dwelling to be searched pursuant to a
warrant may also be searched pursuant
to that warrant.”).

•

See generally 2 Wayne R. LaFave, Search
and Seizure § 4.10(c), at 955–56 (5th ed.
2012 & Supp. 2019) (noting that many
decisions do not suggest a limitation
to which vehicles on a property being
searched pursuant to a warrant may be
searched).

Courts in the other group do consider ownership
or control of the vehicle in determining whether it
falls within the scope of the warrant. These courts differ slightly in how they describe the test, but they generally exclude guests’ vehicles from the scope of a
warrant for a home while allowing law-enforcement
officers to search the vehicles of the home’s owner or
resident.
•

See, e.g., United States v. Gottschalk, 915
F.2d 1459, 1461 (10th Cir. 1990) (defining

App. 11
the scope of a premises search warrant “to
include those automobiles either actually
owned or under the control and dominion
of the premises owner or, alternatively,
those vehicles which appear, based on objectively reasonable indicia present at the
time of the search, to be so controlled”);
•

United States v. Patterson, 278 F.3d 315,
318 (4th Cir. 2002) (citing Gottschalk, 915
F.2d at 1461) (providing the same rule);

•

United States v. Duque, 62 F.3d 1146,
1151 (9th Cir. 1995) (citation omitted)
(holding that “a search warrant authorizing a search of a particularly described
premises may permit the search of vehicles owned or controlled by the owner of,
and found on, the premises”);

•

United States v. Pennington, 287 F.3d 739,
745 (8th Cir. 2002) (citation omitted) (noting that, even when not specifically listed
in a warrant, “a vehicle found on the
premises (except, for example, the vehicle
of a guest or other caller) is considered to
be included within the scope of a warrant
authorizing a search of the premises”);

•

United States v. Evans, 92 F.3d 540, 543–
44 (7th Cir. 1996) (stating that a warrant
to search a house allows law enforcement
to search a vehicle within the premises
“unless [the vehicle] obviously belonged
to someone wholly uninvolved in the

App. 12
criminal activities going on in the
house”);2
•

State v. Patterson, 304 Kan. 272, 371 P.3d
893, 899 (2016) (adopting the test as outlined by the Tenth Circuit in Gottschalk).

•

See generally 2 LaFave, Search and Seizure § 4.10(c), at 955–56 (asserting that
“the conclusion that a description of
premises covers vehicles parked thereon
should at least be limited to vehicles under the control (actual or apparent) of the
person whose premises are described”).

Although courts in this group initially spoke of searching vehicles of the homeowner rather than resident
(such as a renter), they later interpreted the rule to
cover both. See, e.g., Evans, 92 F.3d at 543 (“We cannot
think of any reason for distinguishing between an
owner and a tenant, or for that matter between an
owner or tenant on the one hand and a sublessee or
intermittent occupant . . . on the other.”); United States
v. Hohn, 606 F. App’x 902, 909 (10th Cir. 2015) (unpublished).
We find that the better of these two approaches
is to consider ownership or control of a vehicle in
2

Evans appears to have shifted the Seventh Circuit’s jurisprudence in this area toward a presumption that a vehicle found
on premises subject to a search warrant may be searched, except
in special situations. Compare Evans, 92 F.3d at 543–44, with
United States v. Percival, 756 F.2d 600, 612 (7th Cir. 1985) (holding “that a search warrant authorizing a search of particularly
described premises may permit the search of vehicles owned or
controlled by the owner of, and found on, the premises”).

App. 13
determining whether it falls within the scope of a general premises warrant, excluding vehicles of guests or
other visitors from the warrant’s scope. Vehicles of
guests and other visitors to a home are on the property
only temporarily, whether it’s to visit with a friend, to
deliver a package, or for some other reason. When a
warrant for a home fails to mention such a transient
vehicle, the probable cause supporting the warrant
does not extend to that vehicle which happens to be
temporarily on the property when officers execute the
warrant. See 2 LaFave, Search and Seizure § 4.10(c), at
956–57 (“[T]he probable cause determination made by
the magistrate [regarding the home to be searched]
does not extend to the vehicle the visitor has left outside.”). However, the probable cause supporting a warrant for a home would extend to the owner or resident’s
vehicle given the close, long-term connections between
the owner/resident, the home, and the vehicle. Thus,
we conclude that a general warrant to search a specifically described premises like a home includes the ability to search vehicles within the curtilage that could
contain the object of the search and that are “either actually owned or under the control and dominion of the
premises owner [or resident] or, alternatively, those
vehicles which appear, based on objectively reasonable
indicia present at the time of the search, to be so controlled.” Gottschalk, 915 F.2d at 1461. Accord 2 LaFave,
Search and Seizure § 4.10(c), at 955–56 (“[T]he conclusion that a description of premises covers vehicles
parked thereon should at least be limited to vehicles

App. 14
under the control (actual or apparent) of the person
whose premises are described.”).3
This test is easily met here. Neither party challenges the trial court’s finding that Hardin’s vehicle
was in the home’s curtilage when law enforcement
searched it, and the vehicle could contain the drugs
and related items described in the search warrant. And
three independent bases supported the connection between Hardin and his vehicle. First, police knew, based
on their prior observations of Hardin and the vehicle’s
registration, that Hardin owned the vehicle. Second,
police knew that the vehicle was under Hardin’s control by their prior observations of him driving it combined with the fact that he drove it to his house right
before the search. See United States v. Rivera, 738
F. Supp. 1208, 1218–19 (N.D. Ind. 1990) (upholding a
search of a truck that officers had seen the defendant
drive up the driveway of his house right before the
search and on other, prior occasions). Third, even if the
police didn’t know that he owned and controlled the
vehicle, his act of driving it into his own driveway right
before the search represents an objectively reasonable
indicator of his control over the vehicle. As a result, the
general premises warrant permitting law enforcement’s search of Hardin’s home also supported law

3

Applying this test under normal circumstances, a general
warrant to search a home will cover a vehicle in a garage attached
to the home or in the curtilage. See State v. Lucas, 112 N.E.3d
726, 730–31 (Ind. Ct. App. 2018) (upholding this type of search
under a slightly tougher standard).

App. 15
enforcement’s search of his vehicle, and this search did
not violate the Fourth Amendment.4
II.

The search of Hardin’s vehicle did not violate Article 1, Section 11 because it was
reasonable based on the totality of the circumstances.

Hardin also argues that the search of his vehicle
violated Article 1, Section 11 of the Indiana Constitution. Although Article 1, Section 11 contains language
nearly identical to the Fourth Amendment, we interpret Article 1, Section 11 independently. See Shotts v.
State, 925 N.E.2d 719, 726 (Ind. 2010). In cases involving this provision of our Constitution, the State must
show that the challenged police action was reasonable
based on the totality of the circumstances. Robinson v.
State, 5 N.E.3d 362, 368 (Ind. 2014). See also Austin
v. State, 997 N.E.2d 1027, 1034 (Ind. 2013) (quoting
Duran v. State, 930 N.E.2d 10, 17 (Ind. 2010)) (“ ‘[W]e
focus on the actions of the police officer,’ and employ a
totality-of-the-circumstances test to evaluate the reasonableness of the officer’s actions.”).
Important competing interests underlie this totalityof-the-circumstances test to determine reasonableness. On one hand, Hoosiers want to limit excessive
intrusions by the State into their privacy. See, e.g.,
4

Because we find that the officers searched Hardin’s vehicle
pursuant to the warrant, we do not address Hardin’s alternate
argument concerning the automobile exception to the Fourth
Amendment warrant requirement.

App. 16
State v. Washington, 898 N.E.2d 1200, 1206 (Ind. 2008)
(citing State v. Quirk, 842 N.E.2d 334, 339–40 (Ind.
2006)) (“The purpose of this section is to protect those
areas of life that Hoosiers consider private from unreasonable police activity.”); Membres v. State, 889 N.E.2d
265, 274 (Ind. 2008) (noting that the Article 1, Section
11 test “is designed to deter random intrusions into the
privacy of all citizens”). And so we liberally construe
Article 1, Section 11 to protect individuals. Marshall v.
State, 117 N.E.3d 1254, 1261 (Ind. 2019) (quoting
Holder v. State, 847 N.E.2d 930, 940 (Ind. 2006));
Grier v. State, 868 N.E.2d 443, 444 (Ind. 2007) (citing
State v. Gerschoffer, 763 N.E.2d 960, 965 (Ind. 2002)).
On the other hand, Hoosiers are interested in supporting the State’s ability to provide “safety, security, and
protection from crime.” Holder, 847 N.E.2d at 940
(quoting Gerschoffer, 763 N.E.2d at 966). By employing
a totality-of-the-circumstances test, we aim to strike
the proper balance between these competing interests
in light of Article 1, Section 11’s protection from unreasonable searches and seizures. See id. (“It is because of
concerns among citizens about safety, security, and
protection that some intrusions upon privacy are tolerated, so long as they are reasonably aimed toward
those concerns.”).
We provided a framework for conducting this totality-of-the-circumstances test for reasonableness in
Litchfield v. State, 824 N.E.2d 356, 361 (Ind. 2005). See
also Watkins v. State, 85 N.E.3d 597, 600 (Ind. 2017)
(noting the comprehensive application of Litchfield to
Article 1, Section 11 claims). While acknowledging the

App. 17
possibility of “other relevant considerations under the
circumstances,” we stated that the reasonableness of a
law-enforcement officer’s search or seizure requires
balancing three factors: “1) the degree of concern, suspicion, or knowledge that a violation has occurred, 2)
the degree of intrusion the method of the search or seizure imposes on the citizen’s ordinary activities, and 3)
the extent of law enforcement needs.” Litchfield, 824
N.E.2d at 361. When weighing these factors as part of
our totality-of-the-circumstances test, we consider the
full context in which the search or seizure occurs.
Garcia v. State, 47 N.E.3d 1196, 1199 (Ind. 2016). See
also Austin, 997 N.E.2d at 1034–37 (examining the
challenged traffic stop and search as part of the longer
chain of interactions between the defendant and law
enforcement around the time of the stop and search);
Quirk, 842 N.E.2d at 340–43 (same). So, we examine,
at different points in our analysis, the perspectives of
both the officer and the person subjected to the search
or seizure. Garcia, 47 N.E.3d at 1199. And, while the
existence of a valid warrant certainly plays an important role in our review, a warrant does not necessarily make all law-enforcement action related to the
warrant reasonable. Sowers, 724 N.E.2d at 591. See
also Watkins, 85 N.E.3d at 601–03 (analyzing whether
law enforcement’s method of executing a search warrant violated Article 1, Section 11). Thus, the Litchfield
factors provide guidance and structure to our analysis
of Article 1, Section 11 claims while staying true to considering the totality of the circumstances.

App. 18
With this general guidance in mind, we now address the Litchfield factors, summarizing guiding principles specific to each and considering the facts here.
A. The Degree of Police Concern, Suspicion,
or Knowledge
1. Specific Guiding Principles
We begin our analysis by examining the lawenforcement officers’ “degree of concern, suspicion, or
knowledge that a violation has occurred.” Litchfield,
824 N.E.2d at 361. In evaluating the officers’ degree of
suspicion, we consider all “the information available to
them at the time” of the search or seizure. Duran, 930
N.E.2d at 18. This includes the officers’ knowledge of
the existence of a valid search warrant, which provides
strong support for an officer’s concern that a violation
has occurred and that evidence of the violation will be
found in the place identified in the warrant to be
searched. Watkins, 85 N.E.3d at 601.5
2. Application
Here, the search of Hardin’s vehicle was supported not only by a warrant but also by very recent

5

The focus of this factor can change slightly depending on
the action challenged. For example, when a defendant challenges
the reasonableness of an arrest-warrant execution, we do not test
the arresting officer’s concern that a violation has occurred. Instead, we test the officer’s belief regarding the location and presence of the defendant. Duran, 930 N.E.2d at 18.

App. 19
information indicating that evidence of criminal activity would be in the vehicle.
The officers had obtained a warrant for Hardin’s
home, and Hardin does not challenge the conclusion
that he parked his vehicle within the curtilage of the
home—an area that, at least for Fourth Amendment
purposes, is considered “part of the home itself.” Collins, 138 S. Ct. at 1670 (citation omitted). While the
warrant did not specifically identify Hardin’s vehicle,
it provided strong support for the officers’ belief that
Hardin was involved in illegal drug activity in and
around his home. Indeed, the search of the home prior
to Hardin’s arrival confirmed this belief when it revealed items consistent with dealing drugs. And in conducting surveillance prior to obtaining the warrant,
officers observed Hardin driving his vehicle to and
from his home, and they knew that the vehicle was registered to him.
In addition to the warrant, the officers also had recent information indicating that Hardin would have
drugs in his vehicle. During the search of Hardin’s
home, the officers learned from police executing a separate warrant that Hardin had recently picked up a
large amount of methamphetamine from Jerry Hall.
So, before officers searched Hardin’s vehicle, they
knew he was involved in illegal drug activities in and
around his home, they found drug-related items in the
home but a conspicuous absence of the drugs themselves, and they heard that Hardin had just received a
large amount of methamphetamine. Hardin then drove

App. 20
his vehicle up the driveway to his home. At this point,
with all the information the officers knew, they had an
extremely strong basis to believe that they would find
drugs in Hardin’s vehicle. See Tr. Vol. 2, p. 25 (Detective
Allen testifying, “[W]hen we were done searching the
house and we hadn’t found [the methamphetamine], it
. . . was my thought that [Hardin] would have that on
his person. Which is common.”).
B. The Degree of Intrusion
1. Specific Guiding Principles
The second Litchfield factor we consider is “the degree of intrusion the method of the search or seizure
imposes on the citizen’s ordinary activities.” Litchfield,
824 N.E.2d at 361. In the years since Litchfield, we
have given several points of guidance regarding this
factor.
First, we consider the degree of intrusion from the
defendant’s point of view. Carpenter, 18 N.E.3d at 1002.
Thus, a defendant’s consent to the search or seizure
is relevant to determining the degree of intrusion.
Duran, 930 N.E.2d at 18 n.4.
Second, when examining the degree of intrusion
into the citizen’s ordinary activities, we consider the
intrusion into both the citizen’s physical movements
and the citizen’s privacy. We have focused on the degree of intrusion into the defendant’s physical movements in our traffic-stop cases. See Austin, 997 N.E.2d
at 1035–36 (comparing the facts of that case with those

App. 21
in Quirk); State v. Hobbs, 933 N.E.2d 1281, 1287 (Ind.
2010). And in our trash-search cases and others, we
have focused on the intrusion into the defendant’s privacy. See Duran, 930 N.E.2d at 18; Litchfield, 824
N.E.2d at 363–64. But both types of intrusions—into
physical movement and privacy—are relevant to this
Litchfield factor.6
Third, by focusing on the degree of intrusion
caused by the method of the search or seizure, we’re
saying that how officers conduct a search or seizure
matters. For example, we have found a high degree of
intrusion when officers executed a search warrant using a battering ram, flash-bang grenade, and SWAT
team as well as when officers conducted a warrantless
strip search of a misdemeanor arrestee as a matter of
course. Watkins, 85 N.E.3d at 601–02 (search warrant);
Garcia, 47 N.E.3d at 1201–02 (citing Edwards v. State,
759 N.E.2d 626, 629 (Ind. 2001)) (strip search). In examining the way that officers conduct a search or
seizure, we continue to consider the totality of the
circumstances and look at “all of the attendant circumstances”—not a single aspect of the search or seizure
6

Considering privacy in this factor should not be confused
with a test for reasonableness that focuses exclusively on the defendant’s expectation of privacy, which we’ve expressly rejected.
Litchfield, 824 N.E.2d at 359. Instead, as noted above, “`we focus
on the actions of the police officer,’ and employ a totality-of-thecircumstances test to evaluate the reasonableness of the officer’s
actions.” Austin, 997 N.E.2d at 1034 (quoting Duran, 930 N.E.2d
at 17). Considering how an officer’s actions intrude on the defendant’s privacy constitutes merely a piece of our totality-of-thecircumstances test.

App. 22
in isolation. Garcia, 47 N.E.3d at 1202. This includes
considering whether officers conduct their search or
seizure pursuant to a warrant since a warrant informs
the subject of the search or seizure of the limitations
imposed on the officers’ actions by a detached judicial
officer. See Carpenter, 18 N.E.3d at 1002 (considering
the lack of a warrant in examining the degree of intrusion).7
Fourth, privacy interests in vehicles do not render
them beyond the reach of reasonable police activity.
Hardin relies on our statement that “Hoosiers regard
their automobiles as private and cannot easily abide
their uninvited intrusion” to argue for a high degree
of intrusion here. See Brown v. State, 653 N.E.2d 77, 80
(Ind. 1995). But Hardin reads Brown too broadly in
connection with this factor. We agree that Hoosiers regard vehicles as private areas not subject to random
police rummaging. See Taylor v. State, 842 N.E.2d 327,
334 (Ind. 2006) (“Automobiles are among the ‘effects’
protected by Article 1, Section 11.”). But that doesn’t
mean that vehicles are beyond the reach of reasonable
law-enforcement activities. We’ve recognized that
“[h]ouses and premises of citizens receive the highest
protection,” Carpenter, 18 N.E.3d at 1002 (citation
7

We hasten to reiterate that whether officers have a warrant
is only one piece of the puzzle. Specifically regarding this degreeof-intrusion factor, officers may still greatly intrude on a person’s
ordinary activities when armed with a warrant. See Watkins, 85
N.E.3d at 601–02 (noting a high degree of intrusion despite the
existence of a warrant). See also Duran, 930 N.E.2d at 18–19 (noting that the possibility that officers could have obtained a warrant
did not reduce the degree of intrusion).

App. 23
omitted), yet they are not completely off limits to law
enforcement. Read in the proper context, Brown is
more about low police suspicion or concern and a lack
of law-enforcement needs (Litchfield factors one and
three) than an overly excessive intrusion (this Litchfield factor). Brown, 653 N.E.2d at 80 (noting both the
delay between when a similar-looking vehicle left a
crime scene and when police found Brown’s vehicle
parked on a public street and searched it as well as
the lack of need for an immediate, warrantless search).
See also Myers v. State, 839 N.E.2d 1146, 1153–54 (Ind.
2005) (upholding a warrantless search of a vehicle and
distinguishing Brown based in part on the low degree
of suspicion that the vehicle searched in Brown contained contraband). Thus, while we continue to recognize that Hoosiers regard their vehicles as private,
Brown does not provide an impenetrable shield for
those vehicles.
With these specific guiding principles in mind, we
turn to the facts of this case to determine the degree of
intrusion.
2. Application
Here, considering all the attendant circumstances,
the search of Hardin’s vehicle resulted in a moderate
degree of intrusion. We begin by recognizing the obvious intrusion into Hardin’s privacy by the search of
his vehicle. Myers, 839 N.E.2d at 1154 (“[T]he interior
search of the defendant’s personal car was likely to impose an intrusion. . . .”). However, the degree of that

App. 24
intrusion was lessened by the way officers conducted
the search. Hardin does not argue that the officers
searched his vehicle in an egregious manner as
could’ve been the case if officers had torn apart his
seats or ripped out his dashboard looking for hidden
compartments. Cf. Bell v. State, 818 N.E.2d 481, 486
(Ind. Ct. App. 2004) (finding a warrantless search unreasonable under Article 1, Section 11 based on the totality of the circumstances, but before Litchfield, when
officers “dismantle[d] the vehicle’s glove box and
searched inside the vehicle’s chassis”). Instead, the
search appears to have been no more extensive than a
visual inspection of the interior of the vehicle—something someone might do to find a credit card or french
fry dropped between a seat and the center console. In
addition to moderating the intrusion into Hardin’s privacy, the officers did not intrude into his physical
movements by searching his vehicle since he was already in police custody. See Hobbs, 933 N.E.2d at 1287.
As a result, the officers’ search of Hardin’s vehicle resulted in a moderate intrusion.8
8

We also note that the officers possessed a warrant to search
Hardin’s home, and they searched his vehicle in connection with
that warrant. However, a warrant does little to lessen the degree
of intrusion into a person’s privacy—from that person’s perspective—when it authorizes a search as a matter of law rather than
by its express language. The warrant here did not expressly reference Hardin’s vehicle or any other vehicles, so we give it little
weight in evaluating the degree of intrusion. But had the warrant
expressly included Hardin’s vehicle—something the officers could
have easily requested—we would have given it more weight, and
the admissibility of the evidence from the search may have been
clearer.

App. 25
C. The Extent of Law-Enforcement Needs
1. Specific Guiding Principles
We round out our analysis under the Litchfield
framework by considering “the extent of law enforcement needs” related to the search or seizure. Litchfield,
824 N.E.2d at 361. These law-enforcement needs exist
not only when officers conduct investigations of wrongdoing but also when they provide emergency assistance or act to prevent some imminent harm.
Carpenter, 18 N.E.3d at 1002; Trimble v. State, 842
N.E.2d 798, 804 (Ind. 2006).
In reviewing the extent of law-enforcement needs,
we look to the needs of the officers to act in a general
way. See Marshall, 117 N.E.3d at 1262 (recognizing
the “need to enforce traffic-safety laws”); Austin, 997
N.E.2d at 1036 (recognizing the need to combat drug
trafficking).
But we also look to the needs of the officers to act
in the particular way and at the particular time they
did. See Duran, 930 N.E.2d at 19 (finding “[t]he law enforcement needs were not pressing” to execute an arrest warrant when the officers had shaky information
on the location of the subject and he was not a flight
risk); Myers, 839 N.E.2d at 1154 (upholding a search of
a vehicle based in part on elevated law-enforcement
needs when the vehicle’s owner was not under arrest
and might have driven the vehicle away). In considering the needs of law-enforcement officers in this more
specific way, however, we take a practical approach and
do not require officers to undertake duplicative tasks.

App. 26
See Garcia, 47 N.E.3d at 1203 (quoting Guilmette v.
State, 14 N.E.3d 38, 42 (Ind. 2014)) (noting that it
“would be extremely cumbersome to require law enforcement to take the ‘belt-and-suspenders’ approach
of applying for an independent warrant anytime they
wish to examine or test a piece of evidence they have
already lawfully seized”).
2. Application
Here, the officers had a moderate need to search
Hardin’s vehicle immediately when he arrived at his
home.
Regarding the broad need to act in this situation,
we’ve recognized that law-enforcement needs in combating drug trafficking—“from individual operators to
large-scale, corporate-like organizations”—are great.
Austin, 997 N.E.2d at 1036. The officers here knew of
Hardin’s methamphetamine-dealing activities from
their previous surveillance, and they found evidence of
those activities in Hardin’s home. Thus, the officers
had a general need to stop Hardin’s criminal activities.
Hardin argues, however, that the officers did not
have a pressing need to immediately search his vehicle, so they should have obtained a separate warrant.
This presents a closer question. On one hand, officers
may not have had a pressing need to search the vehicle
because Hardin was secured and unable to drive the
vehicle away. Also, given the number of law-enforcement agencies and officers involved in executing two

App. 27
search warrants simultaneously, it seems plausible—
at least on this record—that the officers at the scene
could have called on additional officers to get a separate warrant for the vehicle. On the other hand, there
were only four officers present at the scene. They had
to secure the people on the property (Hardin, Hardin’s
girlfriend, and Hardin’s girlfriend’s daughter) and the
property itself, assist EMS personnel, and respond to
anyone that might show up later. See Tr. Vol. 2, pp.
124–25 (noting that Hardin’s mother and her husband
arrived at Hardin’s home toward the end of the search).
And one officer injured his rotator cuff while entering
Hardin’s home, which impacted his ability to physically secure people. If no other officers were able to assist, it may not have been practical to obtain a separate
warrant for the car, increasing the need to immediately
search it.
However close a question the officers’ immediate
needs were, we cannot ignore the other facts of the situation. The officers had a warrant for the home, and
Hardin drove his vehicle into the home’s driveway,
which neither party disputes was part of the curtilage.
Requiring the officers to obtain a separate warrant
for Hardin’s vehicle in this situation would amount to
adopting the “cumbersome . . . ’belt-and-suspenders’
approach” we rejected in Garcia and Guilmette. See
Garcia, 47 N.E.3d at 1203 (quoting Guilmette, 14
N.E.3d at 42).
With the officers’ general need to combat drug
trafficking and their warrant for the home, the officers

App. 28
had at least a moderate need to search Hardin’s vehicle.
D. Balancing the Totality of the Circumstances
Balancing the three Litchfield factors based on the
totality of the circumstances, we find this search reasonable. First, based on the warrant and developments from other investigations, the officers had an
extremely high degree of concern that Hardin’s vehicle
contained illegal drugs. This factor weighs heavily in
the State’s favor. Second, while officers intruded on
Hardin’s privacy by searching his vehicle, they reduced
the degree of that intrusion by exercising restraint in
conducting their search. Their search also did not intrude on Hardin’s physical movements since he had
already been detained. Thus, while officers moderated
the intrusion, they still intruded into his ordinary activities, and this factor weighs moderately in Hardin’s
favor. Third, given the general need to combat drug
trafficking and their possession of a warrant for Hardin’s home, officers had at least a moderate need to
search Hardin’s vehicle when they did. This factor
weighs moderately in the State’s favor. On balance,
the moderate intrusion here did not outweigh the lawenforcement concerns and needs, and the search did
not violate Article 1, Section 11 of the Indiana Constitution.

App. 29
Conclusion
The Fourth Amendment to the United States Constitution and Article 1, Section 11 protect against unreasonable searches and seizures. The search here did
not violate the Fourth Amendment because the lawenforcement officers knew that Hardin owned and controlled the vehicle searched and objectively reasonable
indicia showed the same, so the vehicle in this situation fell within the scope of the warrant for the home.
The search did not violate Article 1, Section 11 because
the high degree of law-enforcement concern and moderate law-enforcement need outweighed the moderate
intrusion caused by the search, so the search was constitutionally reasonable based on the totality of the
circumstances. Thus, we affirm the trial court’s admission of the evidence obtained from the search of the vehicle.
Massa, J., concurs.
Slaughter, J., concurs with separate opinion.
David, J., concurs in part, dissents in part with separate opinion in which Rush, C.J., joins.
ATTORNEY FOR APPELLANT
Glen E. Koch, II
Boren, Oliver & Coffey, LLP
Martinsville, Indiana
ATTORNEYS FOR APPELLEE
Curtis T. Hill, Jr.
Attorney General of Indiana

App. 30
Angela Sanchez
Andrew Kobe
Monika Prekopa Talbot
Deputy Attorneys General
Indianapolis, Indiana

Slaughter, J., concurring.
I agree that the warrantless search of Hardin’s
vehicle did not violate his rights under the Fourth
Amendment to the United States Constitution or its
counterpart in the Indiana Constitution. I join the
Court’s opinion because I agree with its legal analysis,
including how it applied our three-factor Litchfield test
to Hardin’s claims under Article 1, Section 11 of our
state constitution. See Litchfield v. State, 824 N.E.2d
356 (Ind. 2005).
I write separately, however, to highlight a recurring problem with Litchfield. In the fifteen years since
we decided Litchfield, our case reports have ballooned
with examples of ongoing uncertainty among litigants
and lower courts with how to apply its three factors for
assessing whether challenged law-enforcement activity violates our constitution. See, e.g., State v. Washington, 898 N.E.2d 1200 (Ind. 2008) (applying Litchfield
to undisputed facts, trial court granted motion to suppress, court of appeals affirmed 2–1, and Supreme
Court reversed trial court 3–2); Webster v. State, 908
N.E.2d 289 (Ind. Ct. App. 2009) (applying Litchfield,
trial court denied motion to suppress, and court of appeals reversed 2–1).

App. 31
This longstanding uncertainty is evident here. Although the underlying facts are undisputed, respected
jurists at all levels of our judiciary have arrived at different conclusions about what Litchfield means for
Hardin. The nine judges who have reviewed his case
have looked at the same facts and applied the same
legal standard. Yet we have reached widely varying
conclusions about the legal consequence of these uncontested facts. I cannot imagine a clearer sign of precedent in need of reconsideration.
Under Litchfield, no one can predict how courts
will decide a given case with a given set of facts. The
resulting uncertainty is not good for law enforcement,
which needs clear rules so it can conform its conduct to
the law. It is not good for individuals, who need clear
guidance on whether law enforcement has violated
their rights. And it is not good for courts, which must
vindicate these rights. In practice, Litchfield amounts
to a legal Rorschach test—an “eye-of-the-beholder”
inquiry incompatible with the rule of law. The problem,
I submit, lies not with the disputed constitutional provision but with the test we have devised for interpreting it. Like most totality-of-the-circumstances tests
that balance multiple factors, Litchfield is not susceptible to a clear application that produces an obvious
legal out-come.
Going forward, I hope the opportunity arises to
consider a bright-line rule as a successor test to Litchfield for interpreting Article 1, Section 11—one consistent with our framers’ constitution and with the

App. 32
text, history, and structure of this constitutional provision.

David, Justice, concurring in part, dissenting in
part.
I concur in Part I of this opinion and wish to commend the majority’s well-reasoned Fourth Amendment
analysis. I respectfully dissent from Part II, however,
because our state’s constitution provides heightened
protections for Hoosiers and, in my view, the facts of
this particular case weigh differently than the majority’s conclusion. I would find that the evidence obtained from Hardin’s vehicle must be suppressed
because the search was unreasonable under Article 1,
Section 11 of the Indiana Constitution.
As the majority correctly recites, even though the
language in Article 1, Section 11 of the Indiana Constitution closely tracks the language of the Fourth
Amendment, our state’s courts interpret the Section
separately and independently from the Fourth Amendment. Robinson v. State, 5 N.E.3d 362, 368 (Ind. 2014).
Section 11’s purpose is “to protect from unreasonable
police activity those areas of life that Hoosiers regard
as private.” Brown v. State, 653 N.E.2d 77, 79 (Ind.
1995) (citing Moran v. State, 644 N.E.2d 536, 540 (Ind.
1994)). Our Court has previously determined that
the reasonableness of a search or seizure turns “on a
balance of: 1) the degree of concern, suspicion, or
knowledge that a violation has occurred, 2) the degree

App. 33
of intrusion the method of the search or seizure imposes on the citizen’s ordinary activities, and 3) the extent of law enforcement needs.” Litchfield v. State, 824
N.E.2d 356, 361 (Ind. 2005). Bearing these factors in
mind, the State must demonstrate that the police conduct at issue was reasonable under a totality of the circumstances. Robinson, 5 N.E.3d at 368 (quoting State
v. Washington, 898 N.E.2d 1200, 1205-06 (Ind. 2008),
reh’g denied). Importantly, however, these factors are
non-exclusive. See Jacobs v. State, 76 N.E.3d 846, 852
(Ind. 2017).
In the present case, I believe a warrant not only
could have been obtained, but that it should have been
obtained. Much like the majority, I agree that this case
demands careful application of our precedent in Litchfield. Respectfully, however, I would balance these factors in a way similar to our Court of Appeals colleague
Judge Mathias and find that the search of Hardin’s vehicle was unreasonable. See Hardin v. State, 124
N.E.3d 117, 125–26 (Ind. Ct. App. 2019) (Mathias, J.,
dissenting). Thus, I would suppress the evidence and
remand for a new trial.
The first factor we analyze under Litchfield is the
degree of concern, suspicion, or knowledge that a violation occurred. 824 N.E.2d at 361. Admittedly, there
was a high degree of concern that Hardin was dealing
in methamphetamine. The record indicates plenty of
validly obtained intelligence that he was discussing
buying and selling the drug with another party. While
I agree with the majority’s conclusion that “very recent
information indicat[ed] that evidence of criminal

App. 34
activity would be in the vehicle” (Slip Op. at 13), I disagree that the search of Hardin’s vehicle was supported by the warrant obtained in this case because
the vehicle was neither mentioned in the warrant nor
was it present at the onset of the search. Thus, although there was a high degree of concern that a crime
was being committed, there are other factors in play
that must be analyzed.
Regarding Litchfield’s second factor—the degree
of intrusion the method of a search or seizure imposes
on a citizen’s ordinary activities—I believe the search
was highly intrusive for several reasons. Our Court’s
decision in Brown v. State, 653 N.E.2d 77 (Ind. 1995),
provides a solid foundation for analyzing this factor.
While the Brown decision predates the formal totality
of the circumstances test announced in Litchfield, the
case nonetheless turns on the reasonableness of police behavior with respect to “those areas of life that
Hoosiers regard as private.” Id. at 79 (citation omitted).
In that case, a police officer seized a vehicle that was
thought to have been used in a robbery. After impounding the vehicle, the officer began looking for evidence
of the robbery. During that search, Brown arrived and
was placed under arrest, and the officer discovered incriminating evidence. Brown challenged the admissibility of the evidence on Article 1, Section 11 grounds,
but his motion to suppress was denied and he was ultimately convicted. See id. at 79, 81.
On transfer, our Court held the search of the automobile was unreasonable under Article 1, Section 11
based on several, fact-specific circumstances. Id. at 80.

App. 35
Of particular note, our Court observed that “there was
little likelihood that the car would be moved and thus
lost to the police.” Id. Additionally, “[t]here was neither
a shortage of time nor an emergency,” and “the police
were not engaged in a community caretaking function.” Id. Our Court also declared, “With respect to automobiles generally, it may safely be said that Hoosiers
regard their automobiles as private and cannot easily
abide their uninvited intrusion.” Id.
While I agree with the majority’s conclusion that
“Brown does not provide an impenetrable shield” for
Hoosiers’ vehicles (Op. at 16), I read Brown for the
broader proposition that courts should give pause
whenever police engage in searches of a vehicle without a warrant or under the guise of a valid exception
to the warrant requirement. My concern extends to
other vehicles that may have arrived at Hardin’s residence during the search. Would police have carte
blanche access to any vehicle that comes on to the
property during a warrant’s execution? While certainly
the State would say “no” to parcel delivery trucks or
utility maintenance vehicles, the lines start to blur
when it comes to a visiting friend or the occasional person that uses a stranger’s driveway to turn their vehicle around. Would these individuals be at risk of a
sudden search of their vehicle because they happened
to be in the wrong place at the wrong time?
For these reasons, I would conclude there was a
high degree of intrusion. True, the police did not use
flash-bang grenades, see Watkins v. State, 85 N.E.3d
597, 601 (Ind. 2017), nor did police rip apart the car

App. 36
to discover evidence, see Bell v. State, 818 N.E.2d 481,
486 (Ind. Ct. App. 2004). And though it is also true that
Hardin was under arrest at the time of the search, this
is just one consideration when evaluating the level of
intrusion imposed by a particular search. The fact remains that Hardin was secured, mere feet away as the
officer rifled through his truck, and there was neither
a shortage of time nor an emergency. Given Brown’s
broad statement that Hoosiers regard their vehicles as
private, I believe these facts elevate the degree of intrusion.
Finally, with regard to the extent of law enforcement needs, I return again to the fact that Hardin had
already been detained. It would have been a minor inconvenience for the police to obtain a separate warrant
for the vehicle. In fact, prior opinions of this Court instruct that it would have been “best practice” for the
police to take the additional step of obtaining a warrant. Our opinion in Brown, for example, explained,
“Judicial approval makes it much more likely that the
police are doing everything possible to make certain
that the search is appropriate.” 653 N.E.2d at 80.
Stated differently, seeking and securing a warrant
based on probable cause increases the odds police conduct will be viewed as reasonable. Indeed, the “preference for warrants is based on the belief that a neutral
and detached magistrate is more likely to be a fair
evaluator of the relevant circumstances than the police
officer actively involved in investigating a particular
crime.” Id.; see also Lacey v. State, 946 N.E.2d 548,
553 (Ind. 2011) (finding constitutional uncertainty is

App. 37
minimized when police obtain express judicial authorization).
Beginning from this proposition—that it is best
practice for officers to obtain a warrant—and ending
with the facts that Hardin was no longer a flight risk
and the vehicle was not going anywhere, I would find
that the extent of law enforcement needs in this situation was extremely low. Though combatting the use
and sale of drugs in our communities is certainly of
utmost importance, I cannot agree that, on these facts,
this factor weighs at all in the State’s favor.
On balance, I believe the search was unreasonable
under Article 1, Section 11 of the Indiana Constitution
because, although the degree of concern or suspicion
was relatively high, both the level of intrusion and
needs of law enforcement weigh heavily against the
State. I would suppress the evidence obtained from
Hardin’s vehicle and remand this matter for a new
trial.
Rush, C.J., joins.

App. 38
ATTORNEY FOR APPELLANT

ATTORNEYS FOR APPELLEE

Glen E. Koch II
Boren, Oliver &
Coffey, LLP
Martinsville, Indiana

Curtis T. Hill, Jr.
Attorney General of
Indiana
Monika Prekopa Talbot
Supervising Deputy
Attorney General
Indianapolis, Indiana
IN THE

COURT OF APPEALS OF INDIANA
Brian E. Hardin,
Appellant-Defendant,
v.
State of Indiana,
Appellee-Plaintiff.

May 29, 2019
Court of Appeals Case
No. 18A-CR-2629
Appeal from the Morgan
Circuit Court
The Honorable Matthew
G. Hanson, Judge
Trial Court Cause No.
55C01-1709-F2-1851

Brown, Judge.
Brian E. Hardin appeals his conviction for dealing
in methamphetamine as a level 2 felony. He raises
one issue which we revise and restate as whether the
trial court abused its discretion in admitting evidence
obtained from a vehicle located on the premises of a
residence for which a search warrant was issued. We
affirm.

App. 39
Facts and Procedural History
In September 2017, Indiana State Police Detective
Joshua Allen was involved in an investigation into the
finance and delivery of methamphetamine in Morgan
County and surrounding counties. The main target of
the investigation was Jerry Hall. Intercepted communications from a wiretap brought law enforcement’s
attention to Hardin.
On September 26, 2017, Detective Allen completed
an affidavit in support of a search warrant for Hardin’s
residence and asserted in part:
Surveillance was able to identify Hardin going to and from [Hall’s] residence. Surveillance was able to identify Hardin going to
5426 Collett Drive East Camby, Morgan
County, Indiana. Hardin’s vehicle was also
seen parked at 5426 Collett Drive East
Camby, Indiana in the early morning hours of
09.26.20117 [sic]. This officer was able to identify this vehicle as Hardin’s through the Indiana Bureau of Motor Vehicles Information
and Hardin has been seen driving the vehicle.
On 09/25/2017, Brian Hardin had conversations with Jerry Hall in reference to dealing
methamphetamine. Hardin indicated he was
out dealing methamphetamine and picking
up money. Hardin’s cellular telephone location
put him in the area of Martinsville Morgan
County Indiana during this conversation.
Brian Hardin has had several intercepted telephone calls reference to him being involved

App. 40
in the conspiracy to deal methamphetamine
with Jerry Hall.
State’s Suppression Hearing Exhibit 2.
The court issued a search warrant, which states in
part:
You are therefore AUTHORIZED AND ORDERED, in the name of the State of Indiana,
with the necessary and proper assistance, to
enter into (upon) the following described residence, to-wit: single story gray sided residence, with a partial brick front, and attached
garage, and partially covered front porch with
the numeric 5426 attached located at 5426
Collett Drive East, Camby, Morgan County,
Indiana. . . .
State’s Suppression Hearing Exhibit 1.
Detective Allen, Indiana State Trooper Kent William
Rohlfing, Detective Matt Fleener, and Indiana State
Trooper John Patrick, arrived at Hardin’s residence to
execute the search warrant around 11 p.m. on September 26, 2017. Officers initially cleared the residence
for subjects and then began searching for evidence and
found plastic bags, heat seal bags that contained a
crystal substance, digital scales, syringes, and two
pieces of paper consistent with what Detective Allen
knew to be a “pay and owe sheet.” Transcript Volume
II at 118. At some point, Hardin’s girlfriend arrived at
the residence and indicated that Hardin was picking
up food at McDonald’s. Trooper Patrick and Detective

App. 41
Allen left in separate vehicles to attempt to locate
Hardin.
Trooper Rohlfing observed Hardin arrive in a
pickup truck and heard the garage door open at the
same time as a vehicle pulled into the driveway.
Trooper Rohlfing heard the door open and heard Detective Fleener identify himself as State Police and tell
Hardin to show his hands. Hardin backpedaled in a
quick manner, threw two McDonald’s cups in the air,
tripped, fell, kicked his arms and legs, and scooted
along the ground. Detective Fleener “was able to get on
top of [Hardin], basically in a full mount position,” and
Hardin continued to scream and kick. Id. at 74. Hardin
eventually was able to spin to his stomach and raise
himself off the ground. Trooper Rohlfing, who had injured his shoulder gaining entry to the residence,
placed his foot on the back of Hardin’s head and
pushed him straight to the ground, stopping the fight.
Trooper Rohlfing called Trooper Patrick and Detective Allen to inform them that Hardin was in custody at the residence, and Trooper Patrick and
Detective Allen returned to the residence. Meanwhile,
other officers located approximately $327,000 in cash
and over a pound of methamphetamine in executing
the search warrant on Hall’s residence. Detective Allen
performed a search of Hardin’s vehicle and found more
than 100 grams of methamphetamine in a bag underneath the driver’s seat.
On September 28, 2017, the State charged Hardin
with Count I, dealing in methamphetamine as a level

App. 42
2 felony, and Count II, possession of methamphetamine as a level 3 felony. On November 2, 2017, the
State alleged that Hardin was an habitual offender.
On April 17, 2018, Hardin filed a motion to suppress
all evidence seized in the search of his home because
“the search went beyond the scope of items and areas
allowed to be searched by the Search Warrant . . . and
a search of the vehicle which [he] had driven to the
scene was searched without probable cause or authorization by a search warrant.” Appellant’s Appendix Volume II at 21.
On July 11, 2018, the court held a hearing on
Hardin’s motion at which Detective Allen testified. On
July 18, 2018, the court denied Hardin’s motion to
suppress. Specifically, the court’s order found that
Hardin’s vehicle “rested in the driveway and was
therefore on the curtilage of the residence” and that
“the search warrant that only described the residence
of [Hardin] authorized the search of the vehicle while
it remained within the curtilage of the residence.” Id.
at 61. The court also found that the automobile exception applied to the search of the vehicle.
On September 11, 2018, the court held a bench
trial. Hardin’s counsel objected to the admission of the
evidence found in his vehicle and argued a violation of
the U.S. Constitution and Article 1, Section 11 of the
Indiana Constitution, and the court overruled the objection. The court found Hardin guilty of Counts I and
II, and the State dismissed the habitual offender enhancement. The court found that Count II merged with

App. 43
Count I, and sentenced Hardin to twenty-two years
executed.
Discussion
The issue is whether the trial court erred in admitting certain evidence. Although Hardin originally
challenged the admission of the evidence through a
motion to suppress, he now challenges the admission
of the evidence at trial. Thus, the issue is appropriately
framed as whether the trial court abused its discretion
by admitting the evidence. See Guilmette v. State, 14
N.E.3d 38, 40 (Ind. 2014). “Because the trial court is
best able to weigh the evidence and assess witness
credibility, we review its rulings on admissibility for
abuse of discretion and reverse only if a ruling is
‘clearly against the logic and effect of the facts and circumstances and the error affects a party’s substantial
rights.’ ” Carpenter v. State, 18 N.E.3d 998, 1001 (Ind.
2014) (quoting Clark v. State, 994 N.E.2d 252, 260 (Ind.
2013)). “[T]he ultimate determination of the constitutionality of a search or seizure is a question of law that
we consider de novo.” Id.
In ruling on admissibility following the denial of
a motion to suppress, the trial court considers the
foundational evidence presented at trial. Id. If the
foundational evidence at trial is not the same as that
presented at the suppression hearing, the trial court
must make its decision based upon trial evidence and
may consider hearing evidence only if it does not conflict with trial evidence. Guilmette, 14 N.E.3d at 40 n.1.

App. 44
Hardin raises arguments under: (A) the Fourth
Amendment of the United States Constitution; and (B)
Article 1, Section 11 of the Indiana Constitution.
A. Fourth Amendment
Under the Fourth Amendment to the U.S. Constitution, “[t]he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures, shall not be violated.” U.S.
CONST. amend. IV. The United States Supreme Court
has held:
A lawful search of fixed premises generally
extends to the entire area in which the object
of the search may be found and is not limited
by the possibility that separate acts of entry
or opening may be required to complete the
search. Thus, a warrant that authorizes an
officer to search a home for illegal weapons
also provides authority to open closets, chests,
drawers, and containers in which the weapon
might be found. A warrant to open a footlocker
to search for marihuana would also authorize
the opening of packages found inside. A warrant to search a vehicle would support a
search of every part of the vehicle that might
contain the object of the search. When a legitimate search is under way, and when its purpose and its limits have been precisely
defined, nice distinctions between closets,
drawers, and containers, in the case of a home,
or between glove compartments, upholstered
seats, trunks, and wrapped packages, in the

App. 45
case of a vehicle, must give way to the interest
in the prompt and efficient completion of the
task at hand.
United States v. Ross, 456 U.S. 798, 820-821, 102 S. Ct.
2157, 2170-2171 (1982).
In Sowers v. State, 724 N.E.2d 588, 590 (Ind. 2000),
cert. denied, 531 U.S. 847, 121 S. Ct. 118 (2000), the Indiana Supreme Court addressed “whether the Fourth
Amendment permits police officers who secure a lawful
warrant for a residence at a specific address to search
a tent in the backyard of that dwelling.” The Court observed that the United States Supreme Court had explained that the purpose of the requirement in the
Fourth Amendment prohibiting the issuance of any
warrant except upon particularly describing the place
to be searched and the persons or things to be seized
was the prevention of general or wide-ranging exploratory searches. 724 N.E.2d at 589 (citing Maryland v.
Garrison, 480 U.S. 79, 84, 107 S. Ct. 1013 (1987)). The
Court noted that “[i]t is sufficient that a warrant describe the place to be searched in terms that an officer
‘can with reasonable effort ascertain and identify the
place intended.’ ” Id. (quoting Steele v. United States,
267 U.S. 498, 503, 45 S. Ct. 414 (1925)). The Court held:
In Ross, the Supreme Court held that “a warrant that authorizes an officer to search a
home for illegal weapons also provides authority to open closets, chests, drawers, and
containers in which the weapon might be
found.” 456 U.S. at 821, 102 S. Ct. 2157. We
agree with the courts that conclude the same

App. 46
reasoning applies to the yard and outbuildings of a single residence. As the Ninth Circuit
put it:
We are unable to identify a privacy
based reason why this principle
should be restricted to the inside of
a residence and stop at the residence’s threshold to the backyard, or
curtilage. If a search warrant specifying only the residence permits the
search of ‘closets, chests, drawers,
and containers’ therein where the object searched for might be found, so
should it permit the search of similar
receptacles located in the outdoor extension of the residence. . . .
United States v. Gorman, 104 F.3d 272, 275
(9th Cir. 1996). The Ninth Circuit further observed, correctly as far as we can determine,
that “[e]very published opinion addressing
the issue has concluded that a warrant authorizing the search of a residence automatically authorizes a search of the residence’s
curtilage.” Id.
Every value furthered by the Fourth Amendment remains intact if a proper warrant for
the search of a single residence also permits a
search of the yard or curtilage at the designated address. The proper procedures to invoke judicial supervision have been followed,
and a proper justification for the intrusion has
been established. The only issue is whether a
warrant is overbroad in its geographic scope

App. 47
or intentionally restricted to a house itself.
Neither is true here, given the designation of
the property to be searched as a “residence” at
a single specified address.
Finally, the authorities seem unanimous in
permitting similar searches. “Curtilage” originally appears to have meant the area within
a fence surrounding a structure, but is now
used in this context without regard to
whether what is usually termed the “yard” is
fenced or not. See, e.g., United States v. Brown,
822 F. Supp. 750, 754 (M.D. Ga. 1993), aff ’d,
50 F.3d 1037 (11th Cir. 1995) (table) (“The
search warrant in this case authorized intrusion into the area of highest expectation of
privacy. It seems logical and reasonable that
a search warrant that authorizes intrusion
on this greater area of privacy would include
authorization for intrusion in the lesser area
of privacy, the backyard.”); Barton v. State, 161
Ga. App. 591, 288 S.E.2d 914, 915 (1982) (observing that “ ‘[p]remises’ contemplates the
entire living area used by occupant” and upholding search of a shed twenty feet behind
the house); State v. Basurto, 15 Kan. App. 2d
264, 807 P.2d 162, 165 (1991), aff ’d, 249 Kan.
584, 821 P.2d 327 (199 1) (upholding search of
a shed in the backyard of a residence, observing “[t]here appears to be little doubt that a
search warrant which describes only the residence of a defendant will authorize the search
of any vehicles or buildings within the ‘curtilage’ of that residence”); State v. Vicars, 207
Neb. 325, 299 N.W.2d 421, 425-26 (1980) (upholding search of calf shed located on the

App. 48
other side of a chain link fence and 100 feet
from residence); State v. Trapper, 48 N.C. App.
481, 269 S.E.2d 680, 684 (1980) (holding that
a warrant for search of house trailer also permitted search of tin shed approximately thirty
feet from trailer); State v. Stewart, 129 Vt. 175,
274 A.2d 500, 502 (1971) (upholding search of
a tree located in the backyard of a residence).
Like the barn, garage, shed, and tree in the
cited cases, Sowers’ tent was a structure
within the curtilage of a dwelling for which
the police secured a valid search warrant. As
a result, when police obtained a valid warrant
to search the residence at 801 West Neely
Street, they were also authorized to search
the tent in the backyard of the residence. The
search of Sowers’ tent and the seizure of items
found in the tent did not violate the Fourth
Amendment under these curtilage cases. We
see no reason to disagree with these authorities and find no defect in a search that was
properly authorized. Indeed, a police officer
specifically advised the issuing judicial official
that Sowers was in a tent in the backyard of
the residence.
Id. at 590-591.
Hardin concedes that “[a] proper warrant for
search of a single residence also allows a search of the
yard or curtilage of the designated address” and that
“the front porch, side garden, or yard, or a driveway
is an area properly considered as part of curtilage.”
Appellant’s Brief at 10-11. Hardin does not challenge
the trial court’s finding that he parked his vehicle

App. 49
within the curtilage.1 Rather, he appears to focus his
argument on the idea that the search warrant did not
explicitly list the vehicle.
While Hardin asserts that Indiana courts have not
considered the question of whether a vehicle located
on the premises falls within the scope of a search warrant when the vehicle is not mentioned in the warrant,
the State points to State v. Lucas, 112 N.E.3d 726 (Ind.
Ct. App. 2018). In Lucas, Lafayette Police Sergeant
Matthew Gard obtained a search warrant for Lucas’s
home which provided for a search of the home with an
attached two car garage for evidence relating to an assault and/or theft. 112 N.E.3d at 728. During the execution of the warrant, Sergeant Gard found a black
vehicle in the garage, looked inside, saw a large mound
in the back seat which had been covered by a blanket,
reached inside a partially opened window, and moved
the blanket to reveal a large paper bag containing
what Sergeant Gard suspected was synthetic marijuana. Id. The trial court granted Lucas’s motion to suppress, ruling in relevant part “that the officer’s entry
into the vehicle and moving of the blanket exceeded
1

Without citation to the record, Hardin asserts that “the vehicle was not on the premises during the execution of the Search
Warrant” and that “Hardin was not near the vehicle when he
drove it up.” Appellant’s Brief at 14. Hardin does not develop a
cogent argument regarding these assertions. Further, he asserts
that the automobile exception does not apply and cites Collins v.
Virginia, 138 S. Ct. 1663 (2018). In Collins, the Supreme Court
addressed “whether the automobile exception justifies the invasion of the curtilage” and declined “Virginia’s invitation to extend
the automobile exception to permit a warrantless intrusion on a
home or its curtilage.” 138 S. Ct. at 1671, 1673.

App. 50
the scope of the warrant and all evidence seized as a
result of said action is suppressed.” Id. at 729.
On appeal, we observed that it appeared that Indiana state courts had not decided the precise issue of
whether the Fourth Amendment permits an officer
who has procured a search warrant for a home and garage to also search any vehicles found on the premises.
Id. at 730. We noted that the Seventh Circuit had held
that, “while a vehicle is less fixed than a closet or cabinet, it is ‘no less fixed than a suitcase or handbag found
on the premises, both of which can readily be searched
under Ross if capable of containing the object of the
search.” Id. (quoting United States v. Percival, 756 F.2d
600, 612 (7th Cir. 1985)). We stated that, “[o]bserving
the trend in other jurisdictions upholding such
searches, the Percival court held that ‘a search warrant
authorizing a search of particularly described premises may permit the search of vehicles owned or controlled by the owner of, and found on, the premises.’ ”
Id. (quoting Percival, 756 F.2d at 612). We observed
that Percival has subsequently enjoyed support in our
federal circuit and district courts. Id. (citing United
State v. Evans, 92 F.3d 540, 543 (7th Cir. 1996) (search
of trunk of vehicle in attached garage pursuant to
warrant for house “with detached garage”), cert. denied
519 U.S. 1020, 117 S. Ct. 537 (1996); United States v.
Rivera, 738 F. Supp. 1208, 1218 (N.D. Ind. 1990)
(search of truck in driveway pursuant to warrant for
home’s premises)). We acknowledged that Hoosiers
have a heightened expectation of privacy in their vehicles, but found the reasoning of the Seventh Circuit in

App. 51
Percival to be persuasive and held that, under the
Fourth Amendment, a search warrant authorizing a
search of a particularly described premises permits the
search of vehicles owned or controlled by the owner of,
and found on, the premises. Id.
In light of the foregoing, we conclude that the
search of Hardin’s vehicle did not violate the Fourth
Amendment. See Rivera, 738 F. Supp. at 1218 (holding
that, “[w]hile the better practice would have been to
include a description of the defendant’s vehicle in the
warrant, such a practice is not mandated in every instance by the fourth amendment” and that the search
of the defendant’s truck in the driveway was within the
scope of the search warrant issued for his premises);
see also WAYNE R. LAFAVE, 2 SEARCH & SEIZURE
§ 4.10(c) (5th ed.) (“Ordinarily, a description in a warrant of a dwelling at a certain place is taken to include
the area within the curtilage of that dwelling, so that
it would cover a vehicle parked in the driveway rather
than the garage. “).2

2

To the extent Hardin cites State v. Gosch, 339 P. 3d 1207
(Idaho Ct. App. 2014), review denied, we find that case distinguishable. Unlike in the present case, there was no finding by the
trial court in Gosch that the vehicle which was searched was
within the curtilage of the residence. The court in Gosch ultimately concluded that the vehicle in that case was properly
searched under the automobile exception to the warrant requirement. See 339 P.3d at 1212-1213.

App. 52
B. Article 1, Section 11
Article 1, Section 11 of the Indiana Constitution
provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable search or seizure, shall not be
violated; and no warrant shall issue, but upon
probable cause, supported by oath or affirmation, and particularly describing the place to
be searched, and the person or thing to be
seized.
Although its text mirrors the federal Fourth
Amendment, we interpret Article 1, Section 11 of our
Indiana Constitution separately and independently.
Robinson v. State, 5 N.E.3d 362, 368 (Ind. 2014). “When
a defendant raises a Section 11 claim, the State must
show the police conduct ‘was reasonable under the
totality of the circumstances.’ ” Id. (quoting State v.
Washington, 898 N.E.2d 1200, 1205-1206 (Ind. 2008),
reh’g denied). Generally, “[w]e consider three factors
when evaluating reasonableness: ‘1) the degree of
concern, suspicion, or knowledge that a violation has
occurred, 2) the degree of intrusion the method of the
search or seizure imposes on the citizen’s ordinary activities, and 3) the extent of law enforcement needs.’ ”
Id. (quoting Litchfield v. State, 824 N.E.2d 356, 361
(Ind. 2005)).
As for the degree of concern, suspicion, or
knowledge that a violation had occurred, the record
reveals that officers had conducted surveillance of

App. 53
Hardin and Hall and had information that Hardin
was dealing methamphetamine. Regarding the degree
of intrusion, Hardin was under arrest and officers had
a search warrant and searched his vehicle which was
parked in his driveway. With respect to the extent of
law enforcement needs, the record reveals that law enforcement gathered information that Hardin was dealing methamphetamine and involved in the finance and
delivery of methamphetamine in Morgan County and
surrounding counties. Under the totality of the circumstances, we conclude that the search of the vehicle was
reasonable and did not violate Article 1, Section 11 of
the Indiana Constitution.
Conclusion
For the foregoing reasons, we affirm Hardin’s conviction.
Affirmed.
May, J., concurs.
Mathias, J., dissents with opinion.

App. 54
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------IN THE

COURT OF APPEALS OF INDIANA
Brian E. Hardin,
Appellant-Defendant,

Court of Appeals Case
No. 18A-CR-2629

v.
State of Indiana,
Appellee-Plaintiff.
Mathias, Judge, dissenting.
Because I believe that the police search of Hardin’s
automobile was improper under both the Fourth
Amendment and Article 1, Section 11, I respectfully
dissent.
Interpreting the Fourth Amendment, the United
States Supreme Court has held that “[a] lawful search
of fixed premises generally extends to the entire area
in which the object of the search may be found and is
not limited by the possibility that separate acts of entry or opening may be required to complete the search.”
United States v. Ross, 456 U.S. 798, 820–21 (1982).
This is only common sense. The police should not be
required to obtain a separate warrant to open a chest
found inside the home for which they have already obtained a search warrant. And in Sowers v. State, 724
N.E.2d 588, 590 (Ind. 2000), our supreme court noted
that “ ‘[e]very published opinion addressing the issue
has concluded that a warrant authorizing the search
of a residence automatically authorizes a search of

App. 55
the residence’s curtilage.’ ” (quoting United States v.
Gorman, 104 F.3d 272, 275 (9th Cir. 1996)). As the
Ninth Circuit put it:
If a search warrant specifying only the residence permits the search of ‘closets, chests,
drawers, and containers’ therein where the
object searched for might be found, so should
it permit the search of similar receptacles located in the outdoor extension of the residence. . . .
Gorman, 104 F.3d at 275 (quoted in Sowers, 724 N.E.2d
at 590). Following this reasoning, our supreme court in
Sowers held that a warrant authorizing the search of a
specific residence also authorized the search of a tent
located in the backyard:
Like [a] barn, garage, shed, and tree . . . ,
Sowers’ tent was a structure within the curtilage of a dwelling for which the police secured
a valid search warrant. As a result, when police obtained a valid warrant to search the
residence . . . , they were also authorized to
search the tent in the backyard of the residence.
Sowers, 724 N.E.2d at 591. But our supreme court has
never extended this to include the search of an automobile located on the premises of the residence authorized to be searched.
A panel of this court took that step in State v.
Lucas, 112 N.E.3d 726, 730 (Ind. Ct. App. 2018), which
held that “a search warrant authorizing a search of a
particularly described premises permits the search of

App. 56
vehicles owned or controlled by the owner of, and found
on, the premises.” I believe this is a step too far, at least
under the circumstances of the present case.
As stated by Professor LaFave, the analogy between an automobile and other chattel located on a
premises is “less than perfect.” Wayne R. LaFave,
Search & Seizure § 4.10(c) (Update 2018).
Certainly a vehicle, even one parked in a garage, has a lesser connection with the premises
than “desks, cabinets, closets and similar
items,” and thus one might question whether
a showing of probable cause as to certain
premises should inevitably be deemed to
cover a vehicle (even of the occupant) that
happens to be parked on the property at the
time the warrant is served. . . . Moreover, it
must be remembered that the Fourth Amendment requirement of particularity varies to
some degree by what is reasonably practicable. A requirement that warrants for premises
describe not only the premises generally but
every conceivable hiding place therein would
impose an intolerable burden; by comparison,
it would seem relatively easy to include a description of the occupant’s vehicle in the warrant if the warrant were intended to extend to
the car.
Id. (emphasis added) (footnotes omitted). I too believe
that, if the police wish to search a vehicle located on a
residence, they should simply include this request in
the application for a search warrant. This is not an unreasonable burden.

App. 57
More importantly, I believe that the search of
Hardin’s automobile was unreasonable under Article
1, Section 11 of the Indiana Constitution. As acknowledged by the majority, Indiana courts interpret Article
1, Section 11 independently from the Fourth Amendment, despite their textual similarities. Robinson v.
State, 5 N.E.3d 362, 368 (Ind. 2014). Under Article 1,
Section 11, the State must show that the police conduct
was reasonable under the totality of the circumstances.
Id. Our supreme court has directed us to consider three
factors when determining whether the police conduct
was reasonable: (1) the degree of concern, suspicion, or
knowledge that a violation occurred; (2) the degree of
intrusion the method of search or seizure imposes on
the ordinary activities of the subject of the search; and
(3) the extent of law enforcement needs. Id.
Here, I agree with the majority that the first factor
weighs in favor of reasonableness. The police had
strong evidence that Hardin was dealing in methamphetamine. However, with regard to the second factor,
the degree of intrusion is relatively high. Although
Hardin was already in custody, the police fully searched
his automobile. As our supreme court has stated before: “ ‘Hoosiers regard their automobiles as private
and cannot easily abide their uninvited intrusion[.]’ ”
Myers v. State, 839 N.E.2d 1146, 1153 (Ind. 2005) (quoting Brown v. State, 653 N.E.2d 77, 80 (Ind. 1995)). The
search of an automobile based on a warrant that
makes no mention of the curtilage, much less of an
automobile parked on the curtilage, constitutes a high
degree of intrusion. Lastly, with regard to the needs of

App. 58
law enforcement, I disagree with my colleagues and believe that this factor weighs heavily against a finding
of reasonableness. I acknowledge that the police had
information that Hardin was involved with the delivery and the financing of delivery of methamphetamine
in Morgan and surrounding counties. But at the time
of the search of the vehicle, Hardin was already in custody, and the police had gathered enough evidence to
obtain a search warrant. It would have been a minimal
burden for the police to have secured the car and
quickly obtained a warrant to search the vehicle.
In short, I am of the opinion that the police acted
unreasonably by searching Hardin’s vehicle simply
because he drove it into the driveway of his home while
a search warrant was being executed at the home, especially when he was immediately taken into custody.
It would have been simple for the police to have obtained another warrant authorizing the search of the
vehicle. But they did not, and I honor the distinction
between homes and motor vehicles for purposes of
search and seizure. I therefore believe that the search
of the vehicle was unreasonable and therefore contrary
to Article 1, Section 11 of the Indiana Constitution.
And I respectfully dissent from the majority’s holding
otherwise.

App. 59
)
COUNTY OF MORGAN )
)
)
)
)
STATE OF INDIANA

IN THE MORGAN
COUNTY CIRCUIT
COURT
CASE NO: 55C011709-F2-001851

STATE OF INDIANA
VS.
BRIAN E. HARDIN
DOB: 06/23/1977 SSN: xxx-xx-9049
JUDGMENT AND ORDER RE: SENTENCING
On October 10, 2018, the Court conducted a Sentencing Hearing in this case. On September 11, 2018, the
Court found the Defendant guilty of the criminal offense of:
Count 1: 35-48-4-1.1(a)(2)/F2: Dealing in
Methamphetamine/Amount of 10 or more
grams; 35-48-4-6.1(a)
Count 2: F3: Possession of Methamphetamine
Possession of 28 or more grams of methamphetamine.
The Court now orders:
FINE & COSTS: The Defendant is fined in the sum of
$1.00 plus 185.00 court costs and 200 countermeasure
fee. The fine and costs shall be:
🗹 paid out of bond in this case.

App. 60
SENTENCE: The Defendant is sentenced to imprisonment in the Indiana Department of Correction for
Count 1 for a period of 7920 Day(s) with jail time credit
92 actually plus 31 credit served prior to sentencing.
There is no sentence for Count 2 as it merges with
Count 1
🗹 The Sentence shall be served consecutive
with Parke County pending offense
The Court further orders:
🗹 That Habitual Count of the Information
be dismissed at the request of the State of Indiana.
🗹 BAIL: Released to fines and court costs
and remainder to poster
The Court recommends:
The Defendant shall be confined under NA security.
The executed sentence be served in: Indiana
Department of Correction
DATE: 10/10/2018
/s/ [Illegible]
Judge Matthew G. Hanson
Morgan County Circuit
Court

App. 61
DISTRIBUTION:
RJO,FILE

Prosecuting Attorney Court Services

⬜ Defendant

⬜ Counsel, Glen E Koch, II

⬜ Probation Dept. ⬜ Home Detention Officer
⬜ Sheriff ⬜ Ind.DepartmentofCorrection
⬜ Other: ________________ ⬜ Bail Bond Agent,
Lewis Ed Parker

App. 62
STATE OF INDIANA

MORGAN COUNTY
CIRCUIT COURT

COUNTY OF MORGAN

CAUSE NO:
55C01-1709-F2-1851

STATE OF INDIANA
v.
BRIAN HARDIN
ORDER ON MOTION TO SUPPRESS
(Filed Jul. 18, 2018)
COMES NOW THE COURT and having held a
hearing on July 11, 2018, on the Defendant’s Motion to
Suppress and on the State’s Motion to Revoke Bond
and the State appearing by way of Robert Cline, and
the Defendant appearing in person and with counsel
John Boren and the Court having heard argument and
testimony, the Court now finds as follows:
FACTS
1)

That on or about July 25, 2017 Det. Joshua Allen arrested Elba Davis who was then incarcerated for Dealing in Methamphetamine.
(State’s Ex. 2).

2)

That Davis indicated that he had been purchasing several ounces of methamphetamine
from the Defendant on a daily basis. (Id.).

3)

That Davis agreed with law enforcement to
place a phone call to the Defendant in order to
arrange a methamphetamine deal between
Davis and the Defendant. (Id.).

App. 63
4)

That Davis and the Defendant arranged a
methamphetamine deal, but the Defendant
ultimately did not appear for the arranged
deal. (Id.).

5)

That on September 20, 2017 Det. Allen was
authorized by a Marion County Judge to intercept telephone calls of specific targets of an
investigation. (Id.).

6)

That on September 21, 2017 the Indiana State
Police began intercepting telephonic communications from Jerry Hall, who was identified
as a source of supply of methamphetamine.
(Id.).

7)

That during the telephone intercepts, the Defendant had communications with the target
Hall. (Id.).

8)

That one intercepted communication revealed
that the Defendant agreed to sell the target
Hall one (1) pound of methamphetamine for
$6500. (Id.).

9)

That surveillance of the target Hall’s residence showed the Defendant visiting Hall’s
residence. (Id.).

10) That surveillance showed the Defendant visiting a residence at 5426 Collett Drive East
Camby, Indiana, which Det. Allen testified to
be the Defendant’s residence. (Id.).
11) That Det. Allen testified that the residence
lies within a residential neighborhood.

App. 64
12) That size of the lot on which the residence sits
measured approximately one (1) acre. (Def.
Ex. A 9:13-16).
13) That a driveway on the residence leads to a
garage that is attached to the residence. (Id.
at 9:21-24).
14) That the surveillance also showed the Defendant driving a vehicle that Det. Allen identified
as a silver-gold Chevrolet registered to the
Defendant through the Indiana Bureau of Motor Vehicles. (State’s Ex. 2).
15) That Det. Allen testified that the Defendant
had an on-going business relationship with
Hall in which the Defendant and Hall would
sell the each other methamphetamine.
16) That several intercepted telephone calls indicated that the Defendant and Hall were conspiring to deal methamphetamine. (Id.).
17) That on September 26, 2017, (Def. Ex. A 4:1014), Det. Allen, State Trooper Kent Rohlfing,
State Trooper Matt Fleener, and State
Trooper John Patrick executed a search warrant for Defendant’s residence at 5426 Collett
Drive East Camby, Indiana (State’s Ex. 1).
18) That Det. Allen testified that law enforcement
found in the garage digital scales and a vacuum sealed bag containing a crystalline substance that was later confirmed to be
methamphetamine.
19) That Det. Allen further testified that syringes
were found in a bedroom of the residence.

App. 65
20) That Det. Allen testified that the Defendant
was not present at the residence when the
search warrant was executed.
21) That Det. Allen testified that while he and the
other officers executed the search warrant on
the Defendant’s residence, a search warrant
was also executed on Hall’s residence in Indianapolis.
22) That Det. Allen testified that the search of
Hall’s residence recovered approximately
$370,000 in cash and thirty (30) pounds of
meth.
23) That Det. Allen testified that Hall, after being
advised of his Miranda rights, admitted he
had recently dealt with the Defendant.
24) That during the execution of the search warrant, the Defendant’s daughter and girlfriend
arrived at the residence. (Def. Ex. A 5:19-24).
25) That Det. Allen testified that the Defendant’s
girlfriend had informed him that the Defendant was driving to McDonald’s while the officers searched the residence.
26) That Det. Allen left the residence to look for
the Defendant while the remaining officers
stayed at the residence. (Def. Ex. A 6:21-25).
27) That while Det. Allen searched for the Defendant, the Defendant returned to the residence and was apprehended by Trooper
Fleener and Trooper Rohlfing. (Id. at 7:10-25,
8:1-10).

App. 66
28) That the defendant’s vehicle was parked approximately 25 feet from the garage in the
driveway. (Id. at 12:3-11).
29) That Det. Allen testified that the officers
found and seized a black pouch underneath
the vehicle’s driver seat.
30) That Det. Allen further testified that the
pouch contained approximately 120 grams of
methamphetamine.
ISSUES
I.

Was the vehicle reasonably searched
pursuant to the search warrant?

31) That the search warrant for the residence was
properly issued and supported.
32) That like a front porch, side garden, or yard, a
driveway is an area properly considered curtilage. Collins v. Virginia, 138 S. Ct. 1663, 1671
(2018) (citing Florida v. Jardines, 569 U.S. 1,
6-7 (2013)).
33) That “a proper warrant for the search of a single residence also permits a search of the yard
or curtilage at the designated address.” Sowers v. State, 724 N.E.2d 588, 590 (Ind. 2000).
34) That in Sowers v. State, the Supreme Court of
Indiana held that a tent placed in the backyard of a residence was a structure within the
curtilage of the residence. 724 N.E.2d at 591.
35) That the Court in Sowers relied on State v.
Basurto, 807 P.2d 162, 165 (Kan. Ct. App.

App. 67
1991), aff ’d, 821 P.2d 327 (Kan. 1991), that upheld a search of a shed in the backyard of a
residence. The Indiana Supreme Court quoted
the opinion as follows: “[t]here appears to be
little doubt that a search warrant which describes only the residence of a defendant will
authorize the search of any vehicles or buildings within the ‘curtilage’ of that residence.”
36) That the Defendant’s vehicle in the present
case rested in the driveway and was therefore
on the curtilage of the residence.
37) That the search warrant that only described
the residence of the Defendant authorized the
search of the vehicle while it remained within
the curtilage of the residence.
II. Was there probable cause for law
enforcement to search the vehicle?
38) The Fourth Amendment of the United States
Constitution and Article 1, Section 11 of the
Indiana Constitution protects persons from
unreasonable searches and seizures. See U.S.
Const. amend. IV; Ind. Const. Art. 11, § 11.
39) A warrantless search is reasonable “only if it
falls within a specific exception to the warrant
requirement.” Riley v. California, 134 S.Ct.
2473, 2482 (2014) (citing Kentucky v. King,
563 U.S. 452, 459 (2011)).
40) That a warrantless search of an automobile
may be reasonable when the search is conducted pursuant to the automobile exception

App. 68
and supported by probable cause. Collins, at
1669.
41) That the automobile exception is based on the
ready mobility of a vehicle and a person’s lessened expectation of privacy due to pervasive
governmental regulation of vehicles. Id. at
1669 (quoting California v. Carney, 471 U. S.
386, 390 (1985)).
42) That the “ready mobility” aspect of the automobile exception refers to the inherent mobility of an operational or potentially operational
motor vehicle and does not require an additional likelihood of the vehicle being driven
away. Myers v. State, 839 N.E.2d 1146, 1152
(Ind. 2005); see also State v. Hobbs, 933 N.E.2d
1281, 1286 (Ind. 2010) (citing Myers at 1152);
Meister v. State, 933 N.E.2d 875, 879 (Ind.
2010) (quoting Myers at 1152).
43) That the vehicle was readily mobile as evidenced by the Defendant driving it to the residence before his arrest.
44) That “every value furthered by the Fourth
Amendment remains intact” if the curtilage of
a designated residence is searched pursuant
to a proper warrant for the designated residence. Sowers at 590.
45) That there existed no heightened expectation
of privacy while the car remained on the curtilage because law enforcement possessed a
lawful right of entry to the residence and curtilage.

App. 69
46) That probable cause exists where the facts
and circumstances known to law enforcement
“of which they had reasonably trustworthy information” are sufficient in themselves to
“warrant a man of reasonable caution in the
belief that ‘an offense has been or is being
committed.’ ” Brinegar v. United States, 338
U.S. 160, 175 (1949) (quoting Carroll v. United
States, 267 U.S. 132, 165 (1925)).
47) That there existed probable cause to issue the
search warrant for the residence and the execution of the warrant returned controlled substances and items used in dealing controlled
substances.
48) That law enforcement found digital scales and
a vacuum sealed bag containing a crystalline
substance that was later confirmed to be
methamphetamine at the residence.
49) That Hall, after being advised of his Miranda
rights, admitted he had recently dealt with
the Defendant.
50) That there existed probable cause for law enforcement to believe the car held controlled
substances, items used to store controlled substances, or currency that may be proceeds of
controlled substance sales based on the
search of the residence and Hall’s admissions
upon his arrest.
51) That the automobile exception applied to the
search of the Defendant’s vehicle.

App. 70
IT IS THEREFORE ORDERED, ADJUDGED AND
DECREED THAT:
52) That the Defendant’s Motion to Suppress be
denied.
53 That this case is scheduled for a final pretrial
on the 8th day of August, 2018 at 10:00 a.m.
a.m./p.m. in the Morgan County Circuit
Court, Martinsville IN 46151.
So ordered this: July 18, 2018
/s/ Matthew G. Hanson
Matthew G. Hanson
Judge, Morgan County
Circuit Court
File
Robert Cline
Brian Hardin
John Boren

